fcic.iiV* ?■>

No.

WM'-dJ ;i:J

Supreme Court. U.S.
FILED

IN THE

SEP 2 4 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

QrrtAR-1 \\. Pftf

— PETITIONER

(Your Name)

vs.

Cf\|AVA\ Kmtolfc

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Um-k>/j S-hvteg* flnuN-QT App&ote For

Fourth Pytro.ut-^

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Pam
(Your Name)

ft| ImHaywC^U(/l.y>)^5~Q 2nA /\\}Py
(Andress)*

'

(City, State, Zip Code)

RECEIVED
(Phone Number)

SEP 2 ‘i 2021
gr.Bg#M°EFCT55^EURSK

QUESTION(S) PRESENTED

Cam Federal Prisoners Use f\ fovenS f\cfiOKl
For ft First IWndnenP foetftlmtion Clmm
Does F First Fnendnent retnhfttioA
Ciftim Present n Mew Bivens nontext
thet rmses Spec\nl -factors tbfvt
Counsel tesitfoom \n recognizing F
New remedy m the ftbsenee op
KFFrMftdivc Ketion by Congress
Do Prisoners hnve nm (MVernfttve
DftSiS iki the Pnsan UtgntioW Re-form f\ct
F

Retf\\\fttiof\ C\A\vA

LIST OF PARTIES

]>C All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Ew-ie V. Sieves,No. W-U5S, USCoon-of Affile

' Ul^

entered VAw*cY\ \o, &0& 1

3

TABLE OF CONTENTS
OPINIONS BELOW

1

7

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

lg
33s

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX

Dec^o* of ***, 0*\VedSHVeS Cour+<# ^ecx\a

b Dacron oP

APPENDIX C

United S+fttes \)vaVrvcV CoocV

fieporV&vad RecoHMewdf<Vic^ o^tyve, OMvtedSMes

APPENDIX D
APPENDIX E
APPENDIX F

H

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

UzmcX NMcotes TOO a as rmi)

S

SSffidsv1SM^/K30o,9,«l7C|a5(;iq77)
7
15Win Ciwlmft DepfuimnloR Corrections, 257 F3H FiSSCwu? 3ol7) |?
SllC^-Alob^ 137 $,CV, ]$43.1254(3017)-.____________________
I (a
SiQiei^TNAUH^Si^
U,S,Di5VV-eM5 \\<S13H lU(p,6 S,DrKoVk
AffKiesonvaWe.^ £014 WL £147343, sVll(4^CiR,,Hwi7 3oi4)
U,3.935'(l<iq4),—------------ ------------------- ^

4?.

|q?3 o.S-D'«rtVe*4 l3Hq(,(jS(D,Vi.Y,&ff33/ I4F3)

14

\R
14

1°)
14

Cl& aoosi:)--------------

STATUTES AND RULES j4e.rne.Ni V drtrriaon, &0'3 F. 3d 4/0

FedenW Roles c£ Civil Procedure i34>)(<0
Federal Rules oP Ci^l Procedure 56(F)

tlA.otoOO)

10
lO

1?

Ifc

BoP Proc^rfVM SVftVOHEydV \3\b.0\

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
reported at ft+Wj V. KiMblfty % M"7
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
$4 reported at
N/t
/ 7 fiA /)pp^ll^UOl^ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

__ to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to*

JURISDICTION
^0 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was MAy /&. QoiSil________ _
frfl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.__ A_______
a
. .

On H/trth t % ao90, M&>6upteHe teu& motdM

Hi*

hr ft D&ttfth rutf to 150 dftp

ftCi/L)- The jurisdiction ofthis Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
\TO

%

STATEMENT OF THE CASE
Plaintiff-Appellant, Omari Patton (“Plaintiff5), is a federal inmate confined at the Northeast Ohio
Correctional Center located in Youngstown, Ohio. He is currently serving a 30-year prison sentence based
on his conviction in the United States District Court for the Western District of Pennsylvania for
conspiracy to distribute cocaine and heroin. Plaintiff was convicted by a jury of the conspiracy count and
twenty-seven substantive counts.
On September 5, 2008, the Third Circuit Court of Appeals affirmed Plaintiffs conviction and
sentence. He subsequently filed a motion under 28 U.S.C. § 2255 for post-conviction relief in which he
raised the claim of ineffective assistance of counsel. The district court denied the motion on August 11
2010 and declined to issue a certificate of appealability. On October 23, 2012, the Third Circuit affirmed
the district court’s decision.
While Plaintiff was confined at the Federal Correctional Institution in Bruceton, West Virginia (“FCl
Hazelton”), on February 9, 2016 he commenced this civil action under Bivens v. Six Unknown Named
Agents of the Federal Bureau of Narcotics. 403 U.S. 388 (1971) in the United States District Court for the
Northern District of West Virginia. The suit alleges that on August 14,2014, Correctional Officer Crystal
Kimble (hereinafter “Defendant Kimble”) conducted a search of Plaintiff s prison cell and confiscated a
binder that contained some of his legal documents without any justification for the confiscation. The
following day, according to Plaintiff, he verbally complained to a lieutenant (Lieutenant Williams) about
Defendant Kimble’s search of his cell and confiscation of his legal documents. Plaintiff also alleges that
he later questioned Defendant Kimble about the search of his cell and confiscation of his legal papers and
that Defendant Kimble responded stating that “since you want to complain, next time I will make sure I
take more,” referencing his complaint to Lieutenant Williams.
Plaintiff went on to stale that on August 19, 2014, Defendant Kimble, who worked his housing unit
that day, upon arriving in the unit, stated that “since you guys want to complain I’ll take everything,”

4

which he alleges was in response to him complaining to Lieutenant Williams about Defendant Kimble’s
conduct on August 14, 2014.
The following day, August 20, 2014, Plaintiff alleges that he was “harassed” by Defendant Kimble
and that she again searched his cell and confiscated his sentencing transcript and portions of his trial
transcript in retaliation for him complaining to her superior about her previous search of his cell and
confiscation of his legal material. Plaintiff contended that he had a pending case before the Court of
Appeals for the Third Circuit and needed the confiscated legal documents to adequately litigate the case,
which he was not able to do.
On August 21,2014, Plaintiff filed a request for administrative remedy against Defendant Kimble
for harassing him, for retaliating against him for complaining to her superior about her conduct, and for
confiscating his legal papers without justification. The administrative remedy process ultimately ended
in favor of Defendant Kimble.
In his lawsuit against Defendant Kimble, Plaintiff alleges violation of his First, Fourth, Sixth and
Fourteenth Amendment rights. The suit also seeks monetary damages and an order directing Defendant
Kimble to return the legal documents that she confiscated.
On November 28, 2016, Defendant Kimble, represented by the United States Attorney’s Office for
the Northern District of Virginia, moved to dismiss Plaintiffs complaint on the grounds that the complaint
failed to state a claim under Rule 12(b)(6) of the Federal Rules of Civil Procedure. (Dist. ECF No. 49).
Defendant Kimble’s motion also sought summary judgment pursuant to Rule 56(a). ]d. In the motion,
Defendant Kimble conceded to searching Plaintiffs cell as indicated in Plaintiffs complaint but denied
that she ever confiscated Plaintiffs legal materials as he alleged. She also denied that she harassed or
retaliated against Plaintiff, or that she violated his constitutional rights as he alleged. In response, Plaintiff
submitted affidavits in support of his allegations, including affidavits submitted by inmates Edward
Washington and Kintrel! Todd McEachern. Mr. McEachern attested that he observed Defendant Kimble

10.

enter Plaintiffs cell on August 20, 2014 and emerged with “a medium size clear plastic bag in her hand
which appealed] to be papers and other items in the bag.” (Affidavit ofKintrell Todd McEachern).1
The case was subsequently referred to a Magistrate Judge for analysis and findings of law. In a
report and recommendation filed on July 11, 2017, the Magistrate Judge recommended that Defendant
Kimble’s motion “be granted to the extent [that] it seeks a Motion to Dismiss, and be denied as moot to
the extent that it seeks a Motion for Summary Judgment,” and recommended that Plaintiffs “complaint
be dismissed” for failure to state a claim. (See, Dist. ECF No. 65) (.

In arriving at this

conclusion, the Magistrate determined that “genuine issues of material fact ... [exists as to] whether []
Defendant [Kimble] did, in fact, remove a legal binder and Plaintiffs trial and sentencing transcripts from
his cell.” id- at 7. The Magistrate, however, concluded that Plaintiff failed to make a cognizable retaliation
claim under the Constitution’s First Amendment because, based on this Court’s holding in Dave v.
Rubenstein. 427 Fed. Appx. 317, 319 (4th Cir. 2011), Plaintiffs verbal complaint to Lieutenant Williams
regarding Defendant Kimble’s conduct which led to her retaliating against him by confiscating his legal
papers “cannot support a retaliation claim” because under Dave, “a federal inmate’s verbal complaints are
not constitutionally protected conduct.” ]d- at 8. The Magistrate also concluded that Plaintiffs First
Amendment claim regarding the denial of his right to access the courts “when [] Defendant [Kimble]
retaliated [against him] by confiscating his legal documents” (]d. at 9) was also deficient because even
though an inmate is guaranteed “a reasonably adequate opportunity to present claimed violations of
fundamental constitutional rights to the courts,” ]d-3 citing Bounds v. Smith, 430 U.S. 817, 925 (1977)),
the alleged harm that Plaintiff put forth that he “was unable to prosecute his application to the Third Circuit
to file a second or successive motion” failed to disclose what the newly discovered evidence was,
particularly given the fact that the alleged confiscated trial and sentencing transcripts “existed at the time

1 Kintrell Todd McEachem’s affidavit clearly contradicted Defendant Kimble’s assertion that she did not confiscate Plaintiffs
legal material as he alleged. In that sense, Mr. McEachem’s account corroborated Plaintiffs allegation that Defendant Kimble
confiscated his legal documents which, in turn, established that clearly disputed facts exist.

i\.

of his first appeal and are not new evidence.” ]d. at 9.2

Based on these findings, the Magistrate

recommended that Plaintiffs suit against Defendant Kimble be dismissed in its entirety.
On July 27, 2017, Plaintiff filed objections to the Magistrate’s Report and Recommendation. (Dist.
ECF No. 67). On that same day the district court adopted the Report and Recommendation in its entirety
and entered an order dismissing Plaintiff s complaint with prejudice for failure to state a claim. (Dist. ECF
No. 68). Plaintiff timely appealed.
On appeal, Plaintiff argued that the district court erred in dismissing his complaint. Specifically, the
district court concluded that Plaintiffs retaliation claim failed because, relying on this Court’s decision in
Dave v. Rubenstein, 417 Fed. Appx. 317, 319 (4lh Cir. 2011), Plaintiffs verbal complaint to Defendant
Kimble’s supervisor about her acts of reprisal against him is not a constitutionally protected conduct and
therefore cannot support a retaliation claim. Plaintiff countered by arguing that under Booker v. South
Carolina Department of Corrections, 855 F.3d 533 (4ih Cir. 2017), his verbal complaint to Defendant
Kimble’s supervisor was a constitutionally protected conduct that properly supported a retaliation claim.
A panel of this Court agreed and vacated the district court’s order in part and remanded for further
proceedings on Plaintiffs First Amendment retaliation claim. (See Patton v. Kimble, 17-7032, March 30,
2018) (

). In doing so, the panel rejected the district court’s finding that “[Plaintiff] did not

state a cognizable First Amendment retaliation claim because the antecedent activity—[Plaintiffs] verbal
complaint to [Defendant] Kimble’s supervisor regarding the initial seizure of his legal binder—was not
protected First Amendment speech.” (/

). The panel determined that the district court’s finding

ran “contrary to Booker, in which [the Court] held that prisoners have a clearly established First
Amendment right ‘to file a prison grievance free from retaliation.’” ]d-, citing Booker, 855 F.3d at 545.

2 The Magistrate also recommended dismissal ofPlaintiff s Fourth and Sixth Amendment claims, both ofwhich stemmed from
the retaliation dispute that Plaintiff alleged and from Defendant Kimble’s confiscation of his legal material. However, during
the initial appeal in this case Plaintiff ultimately conceded that these claims were properly dismissed, and for that reason, he
did not challenge them. (CA 4,h Cir. No. 17-7032).

Following remand, the district court, on July 25, 2018, issued an order and notice regarding
discovery and scheduling. (Dist. ECF No. 94). Thereafter, on August 28, 2018, Defendant Kimble filed
a motion requesting that the district court stay its first order of discovery and notice regarding discovery
and scheduling. (Dist. ECF No. 96). The following day, August 29, 2018, the district court denied
Defendant Kimble’s motion to stay discovery. (Dist. ECF No. 97).J
On September 4, 2018, Plaintiff filed a motion to extend the discovery deadline, (Dist. ECF No. 99),
which the district court granted on September 10, 2018. (Dist. ECF No. 102).
A scheduling order was issued on September 17, 2018, (Dist. ECF No. 104), which set a deadline
for discovery on May 1, 2019. The order also set a final pretrial conference for July 18, 2019, and jury
selection for July 30, 2019.
On September 14, 2018, Plaintiff presented Defendant Kimble with his First Set of Interrogatories,
Production of Documents, and Request for Admission. In her response to Plaintiff s discovery requests,
Defendant Kimble presented Plaintiff with a document entitled “Declaration of Crystal Kimble,” which
declared the following under penalty of perjury pursuant to 28 U.S.C. § 1746:
1. I have been sued in my personal, individual capacity in the above-captioned case.
2. I am aware that Plaintiff Omari Patton has requested certain discovery from me.
3. In my personal capacity, no official records of the Federal Bureau of Prisons are in my custody
and control. Therefore, I do not have custody or control over any documents or records requested
by Patton.
4. Any responsive, relevant and available information requested by Patton has already been provided
in conjunction with previous filings in this case.

3 Plaintiff did file objections to Defendant Kimble’s motion to stay discovery which was entered in the docket on September 4,
2018. (Dist. ECF No. 98). His objections, however, became moot because the district court, on August 29, 2018, had already
denied Defendant Kimble’s motion to stay discovery. At the time when Plaintiff filed his objections to Defendant Kimble’s
motion to stay discovery, he was not aware that the district court had already issued an order on August 29, 2018 denying
Defendant Kimble’s motion.

\3

In addition, Defendant Kimble, through counsel, also filed a “Certificate of Service” with the district
court on October 16, 2018 (Dist. ECF No. 110) in which she claimed to have “sent responses to Plaintiffs
discovery requests via United States Postal Service to Plaintiff Omari Patton at [Plaintiffs] last known
address provided by Plaintiff and reflected on the docket.” Id. Because this assertion is false, on October
29, 203 8, Plaintiff filed a motion urging the district court to compel Defendant Kimble to comply with his
discovery requests. (Dist. ECF No. Ill) (Appendix 34-48). As basis for the motion, Plaintiff explained
that he did not “receive any response from Defendant [Kimble] regarding his discovery requests as
Defendant claimed to have provided him.” (ECF No. 111 at 3). Plaintiff also explained that Defendant
Kimble’s sworn declaration that “[a]ny responsive, relevant and available information requested by Patton
has already been provided in conjunction with previous filings in this case,” is also not true.4 On that
basis, Plaintiff asked the district court to “take judicial notice of Defendant [Kimble’s] attempt to
circumvent the discovery process and order [her] to fully comply with [the court’s discovery order].” (ECF
No. 111 at 3).
On January 24, 2019, the court issued an order denying Plaintiffs motion to compel Defendant
Kimble to comply with his discovery requests. (Dist. ECF No. 113).5
Finally, on May 15, 2019, Defendant Kimble filed a renewed motion for summary judgment (ECF
No. 121) and memorandum of law in support thereof. (ECF No. 122). As basis for her summary judgment
motion, Defendant Kimble asserted that “[contemporaneous BOP records reflect that [she] documented
both searches and that she removed only nude photographs, no legal documents, from Patton’s cell.” (ECF

4 The bulk of Plaintiff s interrogatories focused on questions that are unique to Defendant Kimble and are well within the scope
of her knowledge and personal experience. (Plaintiffs Mot. to Compel, citing Fed.R.Civ.P., Rule 26(b)(1)). As to Plaintiff s
request for production of documents, he focused on documents that Defendant Kimble claimed to have possessed and examined
in her previous motion for summary judgment. Yet, in the case of Plaintiff s discovery requests, Defendant Kimble stated that
those documents and information requested by Plaintiff were no longer in her “custody” or “control.”
5 During that time, Defendant Kimble, through counsel, filed a motion on December 26, 2018 to temporarily stay the case in
light of lapse in government funding appropriations, (Dist. ECF No. 112), which the district court granted. (Dist. ECF No. 118).

1H

No. 122 at 1). It is important to note that in her previous motion for summary judgment, (ECF No. 49 at
2), Defendant Kimble made the exact same assertion6 which was ultimately rejected by the Magistrate’s
Report (ECF No. 65) which the district court later adopted. (ECF No. 68). Defendant Kimble further
argued that, (a) Plaintiff provided no facts to support his claims, (ECF No. 122 at 2)—again, the same
argument made in her previous motion for summary judgment, (ECF No. 49 at 6-7); (b) the United States
Supreme Court’s decision announced in Ziglar v. Abbasi, 137 S.Cl. 1843,1854-58 (2017) limits Plaintiff s
reliance on Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971),
(ECF No. 122 at 4-7), and therefore, no cause of action exists because the retaliation claim raised by
Plaintiff “presents] a new context where the Supreme Court has not authorized Bivens liability,” \d. at 8;
(c) Plaintiff “has an alternative process [i.e., the Prison Litigation Reform Act] to pursue his allegations,
which cautions against allowing him to pursue a Bivens lawsuit,” ]d. at 9; (d) the doctrine of “separation
of powers” caution against expanding Bivens liability in this case, jd. at 10; and (e) the defense of qualified
immunity shields her from the claim raised in Plaintiffs Bivens lawsuit, id- at 15, which is the exact same
claim that she raised in her previous motion for summary judgment. (See ECF No. 49 at 13).
On June 10, 2019, Plaintiff filed his response in opposition to Defendant Kimble’s motion for
summary judgment. (ECF No. 127,130). In his response motion, Plaintiff argued that Defendant Kimble’s
attempt to obtain summary judgment is essentially a repackaging of arguments that she previously made
in her initial motion for summary judgment which the Magistrate’s report rejected, and she therefore
should not be allowed “a second bite at the apple.” (ECF No. 127 at 3, 6). Plaintiff also argued that any
question as to whether there are disputed facts in this case has already been resolved by the Magistrate s
report filed bn July 11, 2017 (ECF No. 65) wherein the Magistrate Judge found that “there are genuine
issues of material fact, specifically, whether Defendant [Kimble] did, in fact, remove a legal binder and []
6 The reason why this assertion is important to note is because in responding to Plaintiffs discovery requests, Defendant Kimble
also claimed in the declaration that she filed that “[i]n her personal capacity, no official records ofthe Federal Bureau of Prisons
are in m y custody and control. Therefore, [she does] not have custody or control over any documents or records requested by
Patton

15

Plaintiffs trial and sentencing transcripts from his cell.” (ECF No. 65 at 7) (Appendix 7). In addition,
Plaintiff argued that the discovery of new documents that Defendant Kimble alluded in her second motion
for summary judgment (ECF No. 49 at 2, 5) is a disingenuous argument that the district court should
readily reject because the “so-called ‘contemporaneous search’ that was conducted three years after the
initial search [of the record] was conducted [now conveniently] revealed information that [supposedly was
not among the initial record and which now] either refute or undermine Plaintiff s claim.” {See Plaintiff s
Opp. Mot., ECF No. 127 at 7).
Finally, as to Defendant Kimble’s reliance on Ziglar v. Abbasi, 137 S.Ct. 1843, 1854-58 (2017),
Plaintiff argued that given the fact that Abbasi was decided in June of 2017—more than a month before
the Magistrate’s initial report in this case was filed, (ECF No. 65), more than a month before the district
court’s order adopting the report was filed, (ECF No. 68), and more than nine months before this Court’s
decision vacating the district court’s judgment was filed, (ECF No. 85), if it were true that Abbasi does in
fact bar Plaintiff from pursuing his retaliation claim under Bivens, then either the Magistrate Judge, the
district court, or the panel that heard Plaintiffs appeal would have reached that conclusion because, as
Plaintiff explained in this opposition to Defendant Kimble’s motion for summary judgment, “the
Magistrate, like all judges, are bound to properly follow and apply the law.” {See ECF No. 127 at 9), citing
Sheeler v. United States. 2008 U.S. Dist. LEXIS 118134, *16 (D.C., S. Dakota, 2008) (explaining that
“[t]he Court [] carefully reviewed the allegations of Petitioner, the magistrate judge’s conclusions and
recommendations, relevant caselaw, and Petitioner’s objections, and after this de novo review it adopts
the magistrate judge’s recommendations.”) (emphasis added).
On June 17, 2019, the district court issued an order granting Defendant Kimble’s motion for
summary judgment. (ECF No. 134) {i

;). In doing so, the district court focused on two main

issues: “(1) whether [] Plaintiffs Bivens claims is viable under recent Supreme Court case law [i.e.,

iU

Abbasil: and (2) whether [Defendant Kimble] is entitled to qualified immunity from this action.” (ECF
No. 134 at 3-4).
This appeal now follows.

i 7.

REASONS FOR GRANTING THE PETITION
Because the circumstances underlying Plaintiffs First Amendment retaliation claim fall within the
ambit of Bivens core purpose, and because Abbasi has neither limited nor disavowed Bivens’ goal to
deter, the reasoning provided by the district court for dismissing Plaintiffs Bivens suit is flawed, and the
district court’s decision should therefore be reversed.
In addition to that, the district court further reasoned that the opinion issued by this Court when it
remanded the case “did not address Abbasi either because a more recent case, Booker v. South Carolina
Dep’t of Corrections. 855 F.3d 533 (4th Cir. 2017), fatally undermined the reasoning in Dave.” (Appendix
20). The district court then went on to state that “the Fourth Circuit was tasked with simply remanding
this case back to the undersigned in order to consider how this change in case law affected Patton’s case.”
]d. (emphasis added). But the Abbasi ruling, as Defendant Kimble and the district court now contends,
imposes a “change in case law [that] ajfect[s] [Plaintiff’s] case.” ( , _

t (emphasis added).

Therefore, if this Court believed that to be true during its previous appellate review of the facts and
circumstances driving this case, it would have said so and affirmed the district court’s dismissal on that
basis. But it did not. Nevertheless, here we are.
• 'fC

Simply put, notwithstanding to the district court’s finding, the Abbasi ruling does not limit Plaintiff s

First Amendment retaliation claim. For starters, Plaintiffs First Amendment retaliation claim is not a
“new” context for Bivens which special factors counsel against allowing such a claim to proceed forward
as the district court determined. In light of this Court’s view in Attkisson v. Holder. 2019 WL 2147243,
at *11 n.6 (4lh Cir. May 17, 2019) where it stated that the “Supreme Court may have recognized a fourth
Bivens context in Farmer v. Brennan which sustained a prisoner’s Eight Amendment claim for damages
against federal prison officials for failure to protect,” the retaliation claim at issue in this case is not unlike
the claim (and circumstance) raised in Farmer v. Brennan, particularly in context. Cf. Farmer v. Brennan.
511 U.S. 825 (1994).
Plaintiff, a federal prisoner, believed that he was wronged when a prison guard (Defendant Kimble)
conducted a search of his cell and confiscated portions of his legal documents without justification. While
\%

Plaintiff does not have a privacy right in the random search of his cell, BOP policy allows him to possess
his legal documents, (PS 5580.08 Inmate Personal Property. § 553.10), and it further precludes prison
staff from confiscating his legal documents without justification. See BOP Program Statement 1315.01.
See also Cook v. New York. 578 F.Supp. 179, 183 (S.D.N.Y. 1984) (explaining that “[a] prisoner has a
protectable interest in items of personal property that he legitimately possesses, and this interest may be
infringed if officials seize his property in an unreasonable manner or without justification.”); O’Rourke v.
Smith. 1983 U.S. Dist. LEXIS 13496 (S.D.N.Y. Sept. 23, 1983) (concluding that “‘a prisoner has
protectable privacy and property interests in items of personal property he legitimately possesses,’ and
that those interests are infringed when prison officials seize such property in an unreasonable manner or
without a legitimate justification.”). Because Defendant Kimble improperly confiscated Plaintiff s legal
documents and, according to Plaintiff, was harassing him,16 he decided to exercise his First Amendment
right to voice his grievance by complaining to Defendant Kimble’s supervisor about her conduct. Cf.
Boxer-X v. Harris. 437 F.3d 1107, 1112 (11th Cir. 2006) (“First Amendment right to free speech and to
petition the government for a redress of grievances are violated when a prisoner is punished for filing a
grievance ...”); Toolasprashad v. Bureau of Prisons. 286 F.3d 576, 584-85 (D.C. Cir. 2002) (recognizing
that prisoners “undoubtedly” exercise First Amendment petition right when filing grievances and stating
that prison “officials may not retaliate against prisoners for filing grievances”); Herron v. Harrison, 203
F.3d 410,414 (6lh Cir. 2000) (recognizing claim where inmate alleged that prison officials “impermissibly
retaliated against him for exercising his First Amendment right to file grievances and petition the courts
for redress”).

Plaintiffs complaint to Defendant Kimble’s supervisor clearly angered her, 17 and in

response, she decided to retaliate by striking Plaintiff where she believed it would hurt the most—
confiscating more of his legal documents. As evidence that Defendant Kimble did not fear any reprisal

16 This falls within the scope of the “failure to protect” claim addressed in Farmer v. Brennan, supra.
17 In fact, that was the cogent behind her decision to retaliate. Cf. Farmer v. Brennan, supra.

IS

for her planned course of action, upon entering Plaintiffs housing unit prior to searching his cell, she
announced that “since you guys want to complain, I’ll take everything.” Plaintiff alleged that this remark
was made in response to him complaining to her supervisor about her conduct.18
Without question, this is the precisely the kind of circumstance that Bivens was designed to
prevent—the wanton, callous, and retributive conduct of prison officials who abuse the authority bestowed
upon them without any fear of punishment. Unlike the First Amendment retaliation claim that the Third
Circuit confronted post-Abbasi when it decided Bistrian v. Levi. 912 F.3d 79, 95 (3rd Cir. 2018), the
situation in this case demonstrates a clear consistency with Bivens core purpose, which is to deter federal
officials from abusing their authority. See Malesko, 534 U.S. at 71 (explaining that Bivens “is concerned
solely with deterring the unconstitutional acts of individual officers.”). In Bistrian. the plaintiff “allege[d]
that his fourth placement in the [special housing unit] was punishment for complaining about his treatment
by prison officials.” ]d. at 96. The Court rightfully observed that “[w]hether to place an inmate in more
restrictive detention involves real-time and often difficult judgment-calls about disciplining inmates,
maintaining order, and promoting prison officials’ safety and security,” ]d., and that “[t]hat strongly
counsels [judicial] restraint” because “[s]uch claims must be approached ‘with skepticism and particular
care’ because they are 1 easily fabricated and ... may cause unwarranted judicial interference with prison
administration.”’ Id. at 96 (emphasis added). But that is not the same situation in this case.
Here, Plaintiff lodged a legitimate complaint against a correctional officer who was harassing him
and who improperly confiscated his important legal documents. Nothing about that was fabricated.19 The
officer then retaliated against Plaintiff for complaining to her superior about her conduct.

Plaintiff

18 Plaintiff also alleged that after Defendant Kimble confiscated his legal documents, he questioned her about the confiscation
and she responded by stating that “since you want to complain, next time I will make sure I take more.” (See Plaintiff s Previous
Appeal Br. at 1) (No. 17-7032, 4th Cir.).
19 Nor is there any potential for fabrication because the issue complained about is readily verifiable, particularly at the pleading
stage of a civil action which require some evidence to support the claim(s) raised. Furthermore, assuming that a lie was told,
the inmate plaintiff would then be subjected to sanctions and perhaps even criminal prosecution for presenting a false claim.

9-Ot

provided evidence (affidavits from other inmates who observed Defendant Kimble enter his ceil and
“emerged with ‘a medium size clear plastic bag in her hand which appealed] to be papers and other items
in the bag”) demonstrating that he was retaliated against and that he lost his legal documents as a result.
Again, there is no potential fabrication there because the situation is driven by specific facts that are
readily verifiable. For those reasons, contrary to the analysis made in Bistrian. supra, the circumstances
of this case conclusively show that “special factors” do not counsel against allowing Plaintiffs particular
First Amendment retaliation claim from pursuing under Bivens.20

ai.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

/ypiphtnhfJZ 1.

/

aa

